         INSPECIOR GENEHAL



                                                               IG-T-090




           UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, D.C. 20436


December 24, 1996

MEMORANDUM

TO:
                                           ~       i
                          Genera.it?r~. £//;tt ~
              Chairman          "r             .
FROM:         Inspector

SUBJECT:      Inspection Report No. 1-97: Review of USITC's Compliance with the Federal
              Managers' Financial Integrity Act of 1982

The Federal Managers' Financial Integrity Act of 1982 (the Act hereafter) requires
executive agencies to establish internal accounting and administrative controls in
accordance with the Comptroller General's standards and related requirements. The Act
further requires that agency heads submit an annual statement to the President and the
Congress on the adequacy of internal controls and actions taken to correct weaknesses
identified. The Commission, which is not defined as an executive agency according to the
Office of General Counsel, has elected to comply with the Act since its inception.

The Office of Management and Budget issued a revised Circular A-123, Management
Accountability and Control, on June 29, 1995. The revised Circular finalizes earlier
unofficial guidance significantly simplifying the internal control review process.
Commission Directive 1601.3, Internal Control Reporting Requirements, was revised based
on the unofficial guidance and issued in June 19.94. The Directive implements a system
consistent with the guidance in the final Circular that the annual assessment of
management controls should not be process oriented, but rather be based on management
knowledge gained from daily operations.

The Inspector General is to report annually to the Chairman on the adequacy of the
Commission's review of internal controls. I reviewed and evaluated the Commission's
compliance with the Act and applicable guidelines for the fiscal year ended September 30,
1996, the letters of assurance submitted by Commission office directors, and the analysis
of the financial systems (other than the property section).

The Commission's report by the Internal Control Officer identifies no material internal
control weaknesses for fiscal year 1996. I agree with his-assessment that the budgeting
core activity does not constitute an internal control weakness and that the weaknesses in
the print plant and property management system are nonmaterial weaknesses.
Concerning property management, the Internal Control Officer attributed the problem to the
current system in which the Office of Information Services (015) installs and transfers
computer equipment and the Property Management Officer (PMO), the Director of
Management Services tracks the property. 015 attributed the problem to the failure of
office directors to complete a form 110 when losing a computer, a responsibility they have
as accountable officers. The PMO has no authority to prevent the transfer of equipment if
the paperwork is not completed. In Inspection Report 2-96, Verification of August 1995
Property Inventory, dated October 5, 1995, we identified this same problem with
accountable officers. The extent that equipment cannot be located is undetermined as the
annual property inventory was not conducted in January 1996; a quarterly verification was
begun in June 1996, but the process was apparently not completed.

The planned action is to determine where the authority, responsibility and resources should
be for property management. This issue has been discussed previously. OIS could be
designated the accountable officer for all computer equipment; to assign responsibility for
noncomputer equipment and fixed assets to 015 would be inappropriate. Another
possibility would be for DIS to adopt a policy that requests for equipment transfers must be
submitted on a form 11 O. We believe an appropriate action, as suggested in the above
cited Inspection Report, is that accountable officers and the PMO should be held
accountable for fulfilling their responsibilities or that the Commission decide to not control
computer equipment.

We identified additional nonmaterial weaknesses for fiscal year 1996, as follows:

       Security. Needed improvements in building security and the Local Area Network
       were begun in fiscal year 1996, but all actions have not been completed. Additional
       conditions observed during the year are that employees and visitors do not
       consistently wear identity cards as required and retirees are given identity cards that
       give them virtually the same access as that provided to employees.

       Privacy Act Information. The Commission notice for Privacy Act systems of records
       is significantly out of date and inaccurate. Further, some Commission forms
       requesting Privacy Act information do not include a required notice. The
       Commission had not clearly assigned or established the responsibilities of the
       Privacy Act Officer; the Officer was subsequently designated, and the
       responsibiliti.es will be set forth in an appropriate document.

      Debt Collection. Although the Commission routinely offsets an ernplovees salary
      for debts owed to the government or others, it has not promulgated debt collection
      regulations required in order to take this action.

      Cash Management. Checks submitted by employees for debts owed to the
      government were not deposited in a timely manner because checks are not sent
      directly to the Office of Finance and Budget upon receipt.

      Telephone Policy. The Commission does not collect for unauthorized phone calls in
      accordance with Federal regulations.




                                             2
       Time and Attendance. The Commission moved to a new payroll system in fiscal
       year 1996. The new system has some capabilities that allow time to be recorded in
       a manner inconsistent with Commission policy. For instance, Commission policy is
       to record leave in whole hours, but some timekeepers record leave in lesser '
       amounts.

       Drug Free Workplace. The Commission has not conducted random drug testing for
       two years, as required by Commission policy.

I found that the evaluation of the system of internal accounting and administrative control,
as described in USITC Internal Control Reporting Requirements, has been carried out in a
reasonable and prudent manner in the Commission for the fiscal year ended September 30,
1996. During the review, nothing came to my attention that would indicate that the
Commission did not substantially comply with the above-mentioned guidelines. However,
we believe that this process is not very effective as evidenced by the nonmaterial
weaknesses that we identified, versus those identified by the office directors. This effort
is basically a summation of the internal control weaknesses identified by the Office of
Inspector General (OIG) during the year. As the Commission sees a summary of the DIG
findings every six months, this seems to be a superfluous effort. The Commission
voluntarily complies with this Act in submitting an annual report. We suggest that the
Commission review the decision to voluntarily comply with the Act considering the effort
involved and the results reported.

The Director of Administration reviewed a draft of this report. His comments were
incorporated as appropriate.

The above procedures constitute an inspection made in accordance with the President's
Council on Integrity and Efficiency's Standards for Inspections.

If you have any questions, please contact me on 205-2210.

cc: Commission
    Director, Office of Administration




                                             3
